OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
WATER AND SANITATION
REHABILITATION ACTIVITIES


AUDIT REPORT NO. E-267-05-004-P
June 30, 2005




WASHINGTON, DC
Office of Inspector General


      June 30, 2005

      MEMORANDUM

      TO:                      USAID/Iraq Mission Director, Dawn M. Liberi

      FROM:                    Regional Inspector General, Baghdad, Christine M. Byrne /s/

      SUBJECT:                 Audit of USAID/Iraq’s Water and Sanitation Rehabilitation Activities
                               (Report No. E-267-05-004-P)

      This memorandum transmits our final report on the subject audit and contains no
      recommendations. We received your comments on the draft report and included those
      comments as Appendix II.

      I want to express my sincere appreciation for the cooperation and courtesy extended to
      my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objectives .................................................................................................................. 3

Audit Findings ................................................................................................................... 4

Are USAID/Iraq’s water and sanitation rehabilitation
projects achieving their intended outputs?.......................................................................... 4

     Intended Outputs Were Not
     Always Being Achieved................................................................................................. 6

Is USAID/Iraq addressing institutional capacity-building in its projects to rebuild and
rehabilitate Iraq’s water and sanitation sector infrastructure?............................................. 9

Evaluation of Management Comments ........................................................................... 12

Appendix I – Scope and Methodology ............................................................................ 13

Appendix II – Management Comments ........................................................................... 15

Appendix III – Water and Sanitation Projects Reviewed ............................................... 17
SUMMARY OF RESULTS
According to various U.S. Government reports, Iraq’s water treatment and sewage
facilities are operating at considerably less than normal capacity. To restore essential
water and sanitation services to the Iraqi people, USAID awarded Bechtel National, Inc.
two contracts to rehabilitate, repair, and reconstruct water treatment plants, distribution
systems, pump stations, wastewater collection systems and treatment plants, and solid
waste collection equipment and disposal facilities. Both contracts support USAID’s Iraq
Infrastructure Reconstruction Program. (See page 2.)

The Regional Inspector General in Baghdad, Iraq, conducted this audit to determine (1)
whether USAID/Iraq’s water and sanitation rehabilitation projects were achieving their
intended outputs; and (2) whether USAID/Iraq was addressing institutional capacity-
building in its projects to rebuild and rehabilitate Iraq’s water and sanitation sector
infrastructure. (See page 3.)

USAID/Iraq’s water and sanitation rehabilitation projects were achieving their intended
outputs with some exceptions. Of the 34 projects reviewed, 30 of them, or 88 percent,
achieved or were achieving their intended outputs. Four projects, or 12 percent, were
not for reasons that were beyond the control of the Mission. (See page 4.)

Regarding the second objective, for the projects tested, USAID/Iraq was addressing the
issue of capacity-building in its projects to rebuild and rehabilitate Iraq’s water and
sanitation infrastructure through the provision of training and operational manuals.
There were, however, barriers to capacity-building, including the lack of local skilled
personnel and financial resources. The audit noted that the Mission has already taken
steps to institute operations and maintenance support and training at the plant level in
order to preserve the U.S. Government’s investment. (See page 9.)

This report has no recommendations.

USAID/Iraq concurred with the audit findings. Management comments are included in
their entirety in Appendix II.




                                                                                         1
BACKGROUND
According to various U.S. Government reports, Iraq’s water treatment and sewage
facilities are operating at considerably less than normal capacity. To restore essential
water and sanitation services to the Iraqi people, USAID awarded Bechtel National, Inc.
(Bechtel) two contracts to rehabilitate, repair, and reconstruct water treatment plants,
distribution systems, pump stations, wastewater collection systems and treatment plants,
and solid waste collection equipment and disposal facilities.1 Both contracts support
USAID’s Iraq Infrastructure Reconstruction Program (IIR).

USAID awarded the first contract (Phase 1) to Bechtel on April 17, 2003. It was initially
valued at $680 million and was increased to approximately $1.03 billion on September
30, 2003. This contract included assessment and repair of power generation facilities,
electrical grids, and water and sewage systems. The second contract (Phase 2), in the
amount of $1.8 billion, was awarded on January 5, 2004. The original intent of this
Phase 2 contract was to serve as a “bridge” between the reconstruction work funded
under Phase 1 and the bulk of the work that would eventually be funded under Phase 2.

On June 3, 2004, the Office of Inspector General issued audit report number E-266-04-
002-P, “Audit of USAID/Iraq’s Infrastructure Reconstruction and Rehabilitation Program”,
which covered all infrastructure sectors under Bechtel’s first contract. That report
determined that 64 out of 72 Phase 1 projects (89 percent) were on schedule to achieve
planned outputs and that USAID/Iraq was taking aggressive actions to address
scheduling issues impacting the delayed eight projects (including two water and
sanitation projects). However, the report did contain four recommendations to improve
certain management weaknesses identified by the audit.

The focus of the current audit is specifically on the status of water and sanitation
rehabilitation projects under both Phase 1 and 2.

USAID/Iraq’s Infrastructure Office manages the water and sanitation rehabilitation
activities. The Mission entered into an agreement with the U.S. Army Corps of
Engineers (USACE) to oversee, monitor, and report progress of rehabilitation activities.
Additionally, under Phase 2, the primary Bechtel subcontractor responsible for
implementing water and sanitation activities is Parsons Infrastructure & Technology
Group (Parsons).

According to USACE records, as of January 31, 2005, approximately $139 million and
$231 million have been budgeted for water and sanitation projects under the Phase 1
and Phase 2 contracts, respectively. As of January 31, 2005, combined cumulative
obligations and disbursements under both contracts totaled approximately $2.4 billion
and $1.0 billion, respectively.




1
 These two contracts also provide for other infrastructure rehabilitation projects for electrical
service, telecommunications, and bridges.


                                                                                                    2
AUDIT OBJECTIVES
This audit was conducted as part of the Regional Inspector General, Baghdad’s fiscal
year 2005 audit plan. The audit was designed to answer the following questions:

•   Are USAID/Iraq’s water and sanitation rehabilitation projects achieving their intended
    outputs?

•   Is USAID/Iraq addressing institutional capacity-building in its projects to rebuild and
    rehabilitate Iraq’s water and sanitation sector infrastructure?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         3
AUDIT FINDINGS
Are USAID/Iraq’s water and sanitation rehabilitation projects
achieving their intended outputs?
USAID/Iraq’s water and sanitation rehabilitation projects were achieving their intended
outputs with some exceptions. Of the 34 projects reviewed, 30 projects, or 88 percent,
were achieving their intended outputs while 4 projects, or 12 percent, were not because
of security conditions, access to site problems, and lack of local government
cooperation.

The 30 projects that achieved or were achieving their intended outputs were comprised
of 14 closeout and 16 active (ongoing) projects. A project is in closeout status when it is
substantially complete, that is, when the work has been completed and accepted by
USAID. The 30 projects, either directly or indirectly, have benefited or will benefit the
Iraqi people by increasing the supply and improving the quality of potable water and
decreasing health hazards posed by untreated sewage. The following examples
illustrate the benefits resulting from the rehabilitated water and sanitation facilities:

   •   The Kirkuk Water Treatment Plant provides clean drinking water to approximately
       375,000 inhabitants of Kirkuk.

   •   The Sweet Water Canal pump stations have improved the quality of water being
       delivered to the Basrah region thus benefiting about 1.8 million Iraqis.

   •   The Basrah International Airport Sewage Treatment Plant has decreased public
       health risks by preventing sewage from being discharged to storm drains.

When the auditors visited the Rustimiyah North Wastewater Treatment Plant, they
observed, in operation, one of the eight aeration tanks that are being rehabilitated.
According to a USACE progress report, the Rustimiyah North Wastewater Treatment
Plant, when completed, will provide wastewater treatment for approximately two million
Iraqis.

On a site visit to the Shark Dijlah Water Treatment Plant, the auditors saw, in operation,
one of the six new clarifiers installed under Phase 1 of the USAID Iraq Infrastructure
Reconstruction Program. Once completed, according to Bechtel’s project engineer, this
project will add about 55 million gallons per day of potable water distributed to the city of
Baghdad.




                                                                                           4
Photograph of one of the eight rehabilitated aeration tanks in operation at the Rustimiyah North Wastewater
Treatment Plant funded under USAID/Iraq’s Iraq Infrastructure Reconstruction Program. (Baghdad, Iraq;
April 2005)




Photograph of one of the six new clarifiers installed at the Shark Dijlah Water Treatment Plant under
USAID/Iraq’s Iraq Infrastructure Reconstruction Program. (Baghdad, Iraq; March 2005)


As stated in the answer to the audit objective above, four water and sanitation projects
were not achieving their intended outputs as discussed below:




                                                                                                         5
Intended Outputs Were Not
Always Being Achieved

 Summary: Of the 34 water and sanitation rehabilitation projects reviewed, four projects
 (12 percent) were not achieving their intended outputs. All four projects encountered
 performance problems because they were located in areas that were deemed non-
 permissive due to precarious security conditions, and with a few of these projects
 hampered by the lack of cooperation from the local government to provide safe access
 during the projects’ implementation. As a result, some projects will either no longer be
 providing clean drinking water or reducing the health risks associated with untreated
 sewage and/or will be significantly delayed in doing so.


The job order (JO) is a USAID document that authorizes Bechtel to implement a project.
The job order defines the project’s scope of work, estimated completion date, estimated
cost, and terms of performance. Any revisions to the job order’s specifications must be
approved by USAID through the issuance of an amendment. To answer the audit
objective, the job order and its amendments were used in reviewing the 34 water and
sanitation rehabilitation projects that have an initial combined budget of approximately
$370 million as of January 31, 2005. (See Appendix III.)

The review showed that 4 of the 34 projects (12 percent) did not achieve or were not
achieving their intended outputs.        The four projects had an initial budget of
approximately $115 million, or 31 percent of the total budget for the 34 projects. The
biggest problem that beset all four projects was the precarious security conditions at the
project sites, thus impeding performance. Compounding the problem for a few projects
was the lack of cooperation from the local government to provide safe access to the
project sites during the projects’ implementation. These problems prevented the four
projects from achieving their intended outputs. They are discussed below.

   •   Baghdad Governorate Municipal Solid Waste Landfill (JO-04-502): This
       project, costing approximately $14.2 million, covered the design and operations
       plan for an initial 3 to 5 year capacity landfill and a Master Plan for a 20-year
       landfill. Bechtel, through its subcontractor, Parsons Infrastructure & Technology
       Group (Parsons), was to perform the design, execution, equipment installation,
       training, start-up, and commissioning of the landfill facility after it had identified
       and assessed a proper site. The project’s period of performance was from
       February 2004 through January 2005, which was later extended to March 2005.

       In March 2005, a little more than a year after its start, the project was still
       ongoing. In April 2005, according to Bechtel, $3.6 million had been spent on the
       project for geotechnical studies, engineering, and equipment that, according to a
       Mission senior advisor, was sitting idle in Kuwait.

       Bechtel considered 14 possible sites, but work at these sites was unfeasible
       because of security issues, which affected safe access to the sites. The
       secondary cause of the problem was the lack of local government cooperation to
       provide safe access to the sites. Lastly, land ownership issues became a
       problem as well. In regard to security, for example, the Abu Ghraib site was not


                                                                                           6
selected because of security issues. Furthermore, security was also a factor
when safe access to the sites posed some problems because either private
citizens or squatters were occupying the land, and the local government failed to
provide safe access to those sites. Lastly, because private citizens were
occupying the sites, land ownership became an issue. Of the 14 sites
considered, three were assessed to date, but none were selected for reasons
shown in the following table:

    No. Proposed Site                     Reason Site was not Selected
     1  Abu Ghraib            Security issues.
     2  Kan Bani Saad         Issues between the local sheikhs and government
                              officials.
     3    Al-Thawra           Access issues, land ownership problems, the existence
                              of squatters, and high water table precluded
                              construction.


A former Mission official confirmed that the issue of land ownership has not been
resolved. He stated that money has been spent on assessments of possible
sites for the landfill but the project was not getting sufficient support from the
Baghdad Amanat.2 A Mission senior advisor added that the Baghdad Amanat
never considered the project a priority and, therefore, did not fulfill its
responsibility. A USACE manager had the same opinion, mentioning that several
sites were considered but ruled out due to the issue of land ownership. And, in a
recent interview with the Mission senior team leader, he expressed doubt that an
appropriate site could ever be identified given the lack of support from the
Baghdad Amanat. He confirmed that Bechtel has considered 14 possible sites
for the landfill but most sites were deemed inadequate because of land
ownership issues (i.e., private citizens were occupying the land). The Baghdad
Amanat was responsible for obtaining safe and appropriate access to the sites
selected, but it was uncooperative and was either unable or unwilling to do so.
All above-mentioned officials expressed doubt that an appropriate site would be
identified given the lack of support from the Baghdad Amanat.

As a result, neither Bechtel nor Parsons was able to adequately assess the
remaining sites. On May 19, 2005, USAID/Iraq amended the job order deleting
from the scope of work items that were not already completed due to the land
ownership problems and severe security concerns. This amendment reduced
estimated costs from $14.2 million to $4.1 million. In addition, the amendment
stated that by July 30, 2005, all the procured equipment would be sent to Kirkuk
Air Force Base where, according to the Mission senior team leader, it would be
used at a landfill that the Kirkuk Director General was developing on its own.

On June 2, 2005, Bechtel’s Chief of Party in Baghdad confirmed that two groups
of procured equipment (e.g., tractor crawler, dump truck, compactors) were in
transit from Baghdad International Airport and Jordan to Kirkuk. According to a
USACE official, the Mission and Bechtel have reached an agreement to store the
mobile camps at Bechtel’s Basrah camp until such time when a decision is made
regarding their disposition.
2
    An Amanat is the equivalent of a municipality.


                                                                                 7
•   Rural Water Supply Project (JO-04-509): According to a USACE official, the
    objective of this project was to build 150 new potable water supply facilities in
    rural areas in order to increase the availability of safe, reliable drinking water to
    communities throughout Iraq with populations of less than 5,000. The scope of
    work included assessing and selecting sites, designing, furnishing, constructing,
    commissioning, testing and providing training for the new facilities. USAID/Iraq
    approved the job order request in June 2004. The project, which has a budget of
    approximately $84.7 million, was estimated to be completed in November 2005.
    Two Mission officials stated that USAID/Iraq was in the process of amending the
    job order and scaling down the number of sites from 150 to 110 well sites. In
    April 2005, the job order was amended to extend the completion date to April
    2006 and reduce the estimated cost to $73.0 million.

    A Bechtel report disclosed that the project’s completion was delayed due to
    factors beyond its control including security conditions that impeded conducting
    site investigations and obtaining unexploded ordinance clearances for selected
    sites, as well as changes made by the local water directorate in selected sites.

    Security concerns in the northern region of the country have prevented the
    investigation of sites and have impacted the construction of wells. Well drilling
    and development activities in two other regions of the country were put on hold in
    January 2005 due to security concerns during the Iraqi national election. Also,
    the field staff did not travel to the remote sites during the same period due to the
    security situation. As a result, there were significant delays in conducting site
    investigations and obtaining unexploded ordinance clearances for the new sites
    in two governorates.

    In May 2005, USAID informed Bechtel that of the 69 sites that were considered
    active, only 35 sites were actually providing water through wells. Of the
    remaining 34 sites, according to USACE personnel, Parsons was working in only
    22 of those sites. Consequently, on May 24, 2005, the Mission’s contracting officer
    officially directed Bechtel to suspend work until further directed by USAID, and
    requested Bechtel to develop alternatives that will put the project back on track. In
    the meantime, the original target of building 150 new potable water supply facilities
    in the rural areas will not be accomplished.

•   Irrigation and Drainage Pump Stations (JO-04-507): The original objective of
    this project was to restore the capacity of seven pump stations located in the
    agricultural regions of Babylon, Anbar/Ramadi, and Ninewa/Al Jazira, in order to
    provide reliable water supply for food crop irrigation. The project, with an
    estimated cost of $10.4 million, started in May 2004 and was expected to be
    completed in July 2005.

    However, in January 2005, Bechtel reported that the construction sites at four of
    the seven pump stations were deemed non-permissive for security reasons. A
    USACE report confirmed that security conditions at the projects’ sites have made
    them non-permissive areas. Consequently, USAID/Iraq directed Bechtel to
    discontinue work at those sites.




                                                                                       8
       In March 2005, during interviews, USAID and USACE officials confirmed the
       previous reports that the four sites were deemed non-permissive due to security
       issues. They said that an agreement was reached with the local government
       wherein USAID would procure the equipment for three pump stations and deliver
       them to the local government, who would then be responsible for their
       installation. Consequently, in April 2005, the job order was amended to reflect a
       change in the project’s scope of work, which was reduced to completing site
       assessments for up to five pump stations and procuring equipment for the
       remaining three pump stations. The amendment also reduced the project’s
       estimated cost by $5.3 million, from $10.4 million to $5.1 million. As a result, the
       project failed to restore the capacity of the pump stations as originally planned.

   •   Al-Wadha Nos. 1, 2, and 3 Pump Stations (JO-04-508): This project’s original
       scope of work was to restore three irrigation pump stations in the Al-Wadha
       region of the Baghdad governorate. This project would have benefited over 5.5
       million people in the Baghdad governorate by providing a reliable water supply
       for food crop irrigation. Started in June 2004, the project was estimated to be
       completed in August 2005 at a cost of about $5.9 million.

       But, in January 2005, Bechtel reported that a number of factors were causing
       performance delays including security conditions. This has caused delays in
       traveling to and from the sites for the Bechtel staff. USAID and USACE officials
       added that, due to precarious security conditions, the project sites were deemed
       dangerous. In addition, there were times when the local ministry did not allow
       access to the sites, thus hindering the completion of the civil work on site.

       Consequently, in April 2005, the Mission approved an amendment to the job
       order reducing the scope of work to include site assessments, development of an
       assessment report, and procurement of equipment and their delivery to the
       Ministry of Water Resources, who would then be responsible for their installation.
       This amendment reduced the project’s estimated cost from $5.9 million to $5.3
       million. Unfortunately, the project failed to restore three irrigation pump stations
       in the Al-Wadha region.

The four projects discussed above did not fully contribute to increasing and improving
the quality of potable water supply facilities, restoring proper sanitation and decreasing
the public health risks associated with it, and increasing agricultural harvests. However,
since the projects’ failure to achieve their intended outputs was caused mainly by the
precarious security conditions in Iraq and the lack of local government cooperation to
provide safe and unobstructed access to some of the projects’ sites, we determined that
these causes were beyond the control of USAID/Iraq and its implementing partners.
Therefore, we are not issuing a recommendation.


Is USAID/Iraq addressing institutional capacity-building in its
projects to rebuild and rehabilitate Iraq’s water and sanitation
infrastructure?
For the items tested, USAID/Iraq was addressing institutional capacity-building in its
projects to rebuild and rehabilitate Iraq’s water and sanitation infrastructure.


                                                                                         9
Both USAID Phase 1 and 2 contracts require Bechtel to provide technical assistance
and training to build the capacity for effective operations and maintenance of the potable
water and wastewater treatment facilities, solid waste management services, irrigation
systems, and other program activities. In addition, the Phase 2 contract requires Bechtel
to provide training at all facilities where projects are implemented and to assess the level
of training that the workers will need and complete manuals in Arabic for all equipment
and systems. Based on these assessments, Bechtel should conduct sufficient training, if
needed, and provide complete operations and maintenance manuals.

To determine if Bechtel was complying with the contracts’ requirements, we reviewed
the training documents for the 34 projects in the audit universe. Bechtel assessed that
30 of the 34 projects required training and operations and maintenance (O&M) manuals.
The 34 projects were comprised of 20 active and 14 closeout projects. In the review of
the 20 active projects, there was evidence that Bechtel assessed the training needs for
the projects by preparing the draft job order training (JOT) worksheets. For 11 of the 20
projects, Bechtel explained that training had not commenced, and that they were waiting
for USAID to approve the draft JOT worksheets. For the remaining nine projects, there
was evidence that training for five projects was ongoing at the time of our fieldwork.
Regarding the remaining four projects, there was documentation that training for two
projects was completed and no training was required for the other two projects.

In reviewing the training documents for the 14 closeout projects, Bechtel assessed the
training needs for the projects by developing the JOT worksheets. There was also
evidence that two projects did not require training because (a) one project had a
qualified workforce; and (b) one other project was a concept design for the rural water
project. From the remaining 12 projects, we judgmentally selected six projects (50
percent) and reviewed their training documentation. We found evidence that Mission
officials and staff agreed with Bechtel’s evaluation of the needs and plans for O&M
training as contained in the draft JOT worksheets. There was also evidence that Mission
officials and staff approved the final O&M training package. In addition, we verified that
the Mission’s training liaison person performed site visits to the project sites to confirm
that training was actually given and to solicit feedback from the trainees on the
usefulness of the training.

Furthermore, we found evidence that Bechtel provided training in the operations and
maintenance of equipment and systems that it installed at the six project sites.
Specifically, training indexes for the six sampled projects had a cumulative total of 6,535
hours of training. Bechtel provided them to the staff of the various facilities. For
example, Bechtel provided 126.5 hours of training in the operations and maintenance of
the pumps, motors, and air blower, to name a few, that it had installed at the Basrah
International Airport Sewage Treatment Plant. Similarly, it conducted training in the
operations and maintenance of the clarification, filtration, and chemical dosing systems
for the employees of the Basrah International Airport Water Treatment Plant. At the
Karbala Sewage Treatment Plant, it offered 750 hours of O&M and theoretical training in
operations, plant management, and principles of maintenance to the employees of the
plant. Additionally, Bechtel trained the employees in the operations and maintenance of
the pumps, motors, and generators that it installed at the Sweet Water Canal pump
stations. Lastly, at the Al Hillah Sewage Treatment Plant, Bechtel provided the staff over
2,410 hours of training in the facility’s O&M of the settling tank, sludge pump station,


                                                                                         10
drying bed, and laboratory equipment set-up among other things. For the items tested,
Bechtel complied with the training requirements of the contracts.

The above actions, however, may not be adequate to ensure the continued operations of
the rebuilt infrastructures. The Mission’s water and sanitation sector senior advisor
stated that Bechtel had successfully conducted O&M training all over the world.
However, the training provided by Bechtel in Iraq has not been fully successful for many
reasons, including the Government of Iraq’s lack of skilled personnel and financial
resources. For example, Bechtel’s training focused on the equipment and systems that
they installed at the rehabilitated plants. In effect, the plants’ staff’s training was limited
to those equipment and systems. Hence, the trained staff was not familiar enough with
most, if not all, aspects of the plants’ operations. Additionally, these infrastructures are
not being supplied with key consumables like chlorine, alum, diesel fuel, motor oil and
grease on a regular basis. One Mission staff member, who is responsible for the Rural
Water Supply Project, stated that the problem his project will face is the local ministry’s
lack of budget to operate and maintain the projects properly when completed. The
Deputy Minister of the Iraq Ministry of Municipalities and Public Works confirmed that the
lack of fuel is a problem. Our site visits to the Rustimiyah North Wastewater Treatment
Plant and Rustimiyah South Sewage Treatment Plant also confirmed the same problem.
The head of the Rustimiyah Amanat said that the lack of financial resources has been a
challenge—resulting in staff shortages. As a result, the Amanat has hired day laborers
to keep the plants in operation. He expressed hope that the Rustimiyah Amanat would
have the resources to be able to continue importing chlorine since local chlorine was of
low quality.

To address some of these challenges, USAID/Iraq has requested USAID/Washington to
obligate $25.0 million for a program whose objective is to help preserve the U.S.
Government’s investment in the rehabilitated water and sewage treatment facilities by
immediately implementing an intensive 12-month program of O&M support and training
at the plant level. The program will include outsourcing the O&M plant startup and
commissioning support and training to private Iraqi firms specializing in water resource
management. They will supply locally hired technical experts, managers, and trainers at
each of the facilities where training is needed for up to a year. The remainder of the
project funding will be made available to procure consumables, should the Government
of Iraq fail to be able to provide them. At the same time, the Mission’s three-year
strategic plan should complement this O&M program. The three-year strategic plan will
include (1) provision of O&M training at the plant level at major water and wastewater
treatment plants with emphasis on plants rehabilitated with USAID funds; (2)
development of national and regional training programs for technician level skills and
operator training in water and wastewater treatment sector; and (3) development of
apprenticeship and certification programs and consideration of creating a national
training center.




                                                                                            11
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Iraq concurred with the audit findings which included the following:

   •   The water and sanitation rehabilitation activities were achieving their intended
       outputs with some exceptions. Of the 34 projects in the audit universe, 30 (88
       percent) had achieved or were achieving their intended outputs.

   •   The Mission was addressing institutional capacity-building in its water and
       sanitation rehabilitation projects through the provision of training and operational
       manuals.

   •   The Mission has already taken steps in overcoming the barriers to capacity-
       building through a new water and sanitation operations and maintenance
       program.

Furthermore, USAID/Iraq stated that the findings will be extremely helpful to the Mission
in ensuring that their administrative and programmatic operations are in full compliance
with USAID policies and regulations, and in managing their resources in the most
efficient manner possible.

Management Comments are included in their entirety in Appendix II.




                                                                                        12
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Baghdad, Iraq conducted this audit in accordance
with U.S. generally accepted government auditing standards. The audit was designed to
answer two questions: (1) Are USAID/Iraq’s water and sanitation rehabilitation projects
achieving their intended outputs? (2) Is USAID/Iraq addressing institutional capacity-
building in its projects to rebuild and rehabilitate Iraq’s water and sanitation sector
infrastructure?

The audit covered the review of the Mission’s water and sanitation sector’s projects
implemented by Bechtel National, Inc. (Bechtel) under the Iraq Infrastructure
Reconstruction Program’s (IIR) Phase 1 and Phase 2 contracts during the period April
17, 2003 through January 31, 2005. As of January 31, 2005, the U.S. Army Corps of
Engineers’ (USACE) Iraq Reconstruction Tracking System (IRTS) database contained
102 job orders, costing approximately $1.8 billion, of which $589 million had been
expended, for all infrastructure sectors under the contracts.

To conduct the audit, we defined our audit population to include all water and sanitation
sector job orders issued under Bechtel’s IIR Phase 1 and Phase 2 contracts. Using the
IRTS, we generated a report containing all water and sanitation sector job orders funded
under the two IIR contracts. From this report, we (1) included job orders that were in
“closeout” and “active” status; (2) excluded a job order that was appropriately cancelled;
and (3) excluded a job order that was consolidated with another active job order. Based
on these selection criteria, we identified a total of 34 job orders consisting of 20 active
and 14 closeout job orders, with a combined estimated cost of approximately $370
million and expenditures of about $98 million. We examined and assessed the Mission’s
significant internal controls over the Iraq Infrastructure Reconstruction Program such as
Bechtel’s Trend Reports and monthly reports, the USACE’s monthly Project Review
Briefs, field visit reports, and amendments to the job orders. We reviewed the Mission’s
Federal Managers’ Financial Integrity Act reports for fiscal years 2003 and 2004 for
those internal controls related to the audit objectives. We also tested the 34 job orders
for completeness and accuracy of data as contained in the IRTS database.

Regarding the second audit objective, the concept of addressing institutional capacity
does not imply that the institutional capacity-building efforts are adequate and does not
ensure the long-term sustainability of the projects.

We conducted the audit at USAID/Iraq in Baghdad, Iraq from January 20 to June 8,
2005. We visited judgmentally selected project sites in Rustimiyah and Shark Dijlah,
Iraq. We intended to visit other water and sanitation rehabilitation project sites, but due
to the precarious security situation, we had to curtail our site visits.

Methodology
To answer audit objective one, we examined the job orders in closeout status by
reviewing documents contained in the IRTS database. A job order was in closeout


                                                                                        13
                                                                            APPENDIX I

status if the Mission considered the project to be substantially complete. For this review,
we considered a project to be substantially complete if any of the following USAID
documents were issued under the project:

   1. Final Inspection Record which indicated that a USAID representative inspected
      the project and accepted the work.
   2. Letter of Substantial Completion which informed Bechtel that USAID considered
      the project to be substantially complete.
   3. Final amendment for job order closeout which indicated the final completion date.
   4. Letter of Completion which informed Bechtel that all closeout actions have been
      addressed and the project was considered 100 percent complete.

Additionally, a water and sanitation project was considered substantially complete when
the project was placed into operation, which generally preceded the final inspection.

For the active job orders, we determined if the projects would be completed by the
project completion date specified in the job order or its latest amendment as of January
31, 2005 (allowing for a 30-day grace period following this date) or the contracts’
expiration dates of June 30, 2005 for IIR Phase 1 and December 31, 2005 for IIR Phase
2, whichever was later. To determine the projects’ status and percent of completion, we
used Bechtel’s weekly power report, monthly report, and weekly trend analysis.
Furthermore, we used the USACE’s fact sheet and Project Review Brief for the week
ending February 6, 2005. In addition, we consulted with the USACE’s Water and
Sanitation Sector Manager and Project Engineer to provide an assessment of whether
the active job orders were on schedule to be substantially complete by the projects’
completion dates or the contracts’ expiration dates based on the actual status of the
projects in relation to key milestones.

In assessing if the active and closeout job orders’ intended outputs were achieved, we
reviewed the Final Inspection Records which certified that the projects were complete
and accepted by USAID. We also interviewed the water and sanitation sector officials
from the Mission’s Infrastructure Office, the USACE, and Bechtel as well as the Deputy
Minister from the Iraq Ministry of Municipalities and Public Works. Furthermore, we
conducted site visits, as security permitted. For the purpose of this review, we
concluded that the intended output was achieved if the project was determined to have
been completed and the output was consistent with the output specified in the job order.

The defined materiality threshold for this audit was 10 percent. To illustrate, if 90
percent or more of the projects reviewed were determined to have achieved their
intended outputs as of the end of the contracts, we would state that the projects met
their intended outputs without exception.

To answer the second audit objective, we examined Bechtel’s job order operations and
maintenance (O&M) worksheets to assess if the O&M training activities planned under
each job order addressed institutional capacity-building as required by the contracts.
We examined training sign-in sheets to determine if training was conducted and checked
the Job Order O&M Manual Deliverables Index to determine if operation manuals were
issued to the trainees.




                                                                                        14
                                                                        APPENDIX II




Date:              June 18, 2005

TO:                Christine M. Byrne, Regional Inspector General Baghdad

FROM:              Dawn Liberi, USAID/Iraq Mission Director /s/

SUBJECT:           Audit of USAID/Iraq’s Water and Sanitation Rehabilitation Activities

REF:               Audit Report No. E-267-05-00X-P


On behalf of the entire USAID/Iraq staff, I would like to express our appreciation for
the conscientious and collaborative effort reflected in the subject Audit report. The
findings will be extremely helpful to the Mission as we work to ensure that our
administrative and programmatic operations are in full compliance with USAID
policies and regulations, and that our resources are managed in the most efficient
manner possible.

Through this memorandum, USAID/Iraq provides its formal concurrence with the
audit findings, which include the following:

   •    The audit found that the water and sanitation rehabilitation activities were
        achieving their intended outputs with some exceptions. Specifically, of 34
        audit universe activities, 30 (88 percent) had achieved or were achieving their
        intended outputs.

   •    The audit found that the Mission was addressing institutional capacity-
        building in its water and sanitation rehabilitation projects through the
        provision of training and operational manuals.

   •    The audit also noted that while there were some barriers to capacity building,
        the Mission has already taken steps to overcome these barriers through a new
        water and sanitation operations and maintenance program.

The audit issued no recommendations.



                                                                                    15
                          U.S. Agency for International Development
                                Iraq Mission, APO AE 09316
                                    Fax +1(202)216-6276
                                                                       APPENDIX II

Again, USAID/Iraq would like to express its appreciation to the Regional Inspector
General’s Office for its professionalism, and for the valuable information included in
the subject report.

_____________________________________________________________________



cc: Amy Fawcett, USAID/Iraq Controller




                                                                                   16
                                                                                                                   APPENDIX III



                                                WATER AND SANITATION PROJECTS REVIEWED
                                                                     (Audit Universe)
Item                                                                                             Budgeted Cost as
 No.            JO No.                                   Project Title                              of 1/31/05        Fund Source      Status

       1   JO-03-028            Najaf Water Treatment Plant                                      $     4,493,000        Phase 1        Active

       2   JO-03-034            Rustimiyah South Sewage Treatment Plant                          $     5,760,000        Phase 1        Active

       3   JO-03-044            Shark Dijlah Water Treatment Plant                               $    20,627,000        Phase 1        Active

       4   JO-03-055            An Najaf Sewage Plant                                            $     5,550,000        Phase 1        Active

       5   JO-03-068            Mosul Water Supply And Sewer System                              $    11,600,000        Phase 1        Active

       6   JO-04-002            Management Oversight for CPA-funded Wastewater Program           $     3,500,000        Phase 1        Active

       7   JO-04-006            Rustimiyah 3 Wastewater Treatment Plant                          $    13,414,000        Phase 1        Active

       8   JO-04-009            Diyala and Salah ad Din Water Provision                          $     5,082,000        Phase 1        Active

       9   JO-03-015            Safwan Water Pump Station                                        $       301,854        Phase 1        Closeout

   10      JO-03-024            Al Hillah Sewage Treatment Plant                                 $     3,047,000        Phase 1        Closeout

   11      JO-03-025            Basrah Water Filtration Treatment Plant                          $    19,346,954        Phase 1        Closeout

   12      JO-03-026            Basrah Water Supply Mains                                        $     2,099,000        Phase 1        Closeout

   13      JO-03-027            Diwaniyah Sewage Treatment Plant                                 $     2,879,000        Phase 1        Closeout

   14      JO-03-029            Karbala Sewage Treatment Plant                                   $     1,846,000        Phase 1        Closeout

   15      JO-03-033            Sweet Water Canal and Pump Stations                              $    10,916,288        Phase 1        Closeout

   16      JO-03-042            Kherkh Sewage Treatment Plant                                    $     5,889,000        Phase 1        Closeout

   17      JO-04-001            Basrah International Airport Sewage Treatment System             $       985,000        Phase 1        Closeout

   18      JO-04-003            Basrah International Airport Water Treatment Plant               $     1,337,000        Phase 1        Closeout

   19      JO-04-008            Kirkuk Water Treatment Plant                                     $     5,000,000        Phase 1        Closeout

   20      JO-04-010            Karbala Water Treatment Plant                                    $     5,236,073        Phase 1        Closeout

   21      JO-04-011            Basrah Wastewater Collection System                              $    10,100,000        Phase 1        Closeout

   22      JO-04-502            Baghdad Governorate Municipal Solid Waste Landfill               $    14,200,000        Phase 2        Active

   23      JO-04-507            Irrigation and Drainage Pump Stations                            $    10,406,000        Phase 2        Active

   24      JO-04-508            Al Wadha Nos. 1, 2, and 3 Pump Stations                          $     5,948,000        Phase 2        Active

   25      JO-04-509            Rural Water Supply Project                                       $    84,735,000        Phase 2        Active

   26      JO-04-510            Sadr City Water Treatment Plant                                  $    30,981,400        Phase 2        Active

   27      JO-04-514            Shark Dijlah Water Treatment Plant                               $    26,674,000        Phase 2        Active

   28      JO-04-515            Zafranyah Sewage Trunk Line                                      $    21,288,000        Phase 2        Active

   29      JO-04-516            Kadhamiya Sewage Collection System                               $     3,272,000        Phase 2        Active

   30      JO-04-517            Baghdad Potable Water Distribution Mains                         $    19,812,000        Phase 2        Active

   31      JO-04-518            Karbala Wastewater Treatment Plant                               $     6,260,000        Phase 2        Active

   32      JO-04-519            Karbala Water Treatment Plant                                    $     4,800,000        Phase 2        Active

   33      JO-04-520            North East Sewer Trunk Line Study                                $     2,000,000        Phase 2        Active

   34      JO-04-505            Concept Designs for Rural Water Supply Project                   $       390,000        Phase 2        Closeout

                                                                                        Total:   $   369,775,569 *
       * -Amount not audited.



                                                                                                                                  17
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig

                                            18
